                                        National Science Foundation
                                             4201 Wilson Boulevard
                                            Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:              12/19/2006

TO:                David Elizalde, Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Deborah H. Cureton
                   Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. 07-1-004, Review of Raytheon Polar Services
         Company’s Cost Accounting Standards Board Disclosure Statement

In response to your request for audit support of the Raytheon Polar Services Company (RPSC)
Fiscal Year (FY) 2000 to 2004 incurred cost proposal submission of costs claimed under NSF
Contract No. DACS-OPP-0000373, we have coordinated a series of audits to be performed by
the Defense Contract Audit Agency (DCAA), Herndon Branch Office. Attached is the final
audit report “revised”1 dated October 20, 2006, on the adequacy of RPSC’s Cost Accounting
Standards Board (CASB) Disclosure Statement submitted on April 17, 2006, with a proposed
effective date of January 1, 2005. The objectives of the audit were to:

           •    Examine the RPSC Disclosure Statement to determine whether it adequately
                describes RPSC’s cost accounting practices2 and is consistent with RPSC’s actual
                practices;
           •    Examine the disclosed practices to determine whether the practices comply with
                applicable Cost Accounting Standards (CAS) and Federal Acquisition Regulations
                (FAR), Part 31; and
           •    Evaluate the cost impact of the changes in accounting practice in order to describe,
                categorize, and negotiate with RPSC the cost impact of the changes.3

RPSC has to date not submitted the associated cost impact proposal required by federal
regulations for any change in cost accounting practice. When accounting changes meet both

1
  DCAA revised its report to update the Organization and Systems Section of the initial audit report related to the
status of outstanding CAS noncompliances.
2
  A Disclosure Statement is adequate if it is current, accurate, and complete in accordance with FAR 30.202-7(a).
3
  This Disclosure Statement describes changes in disclosed and established cost accounting practices which RPSC
proposes to use in the performance of the USAP contract.
tests of adequacy and compliance, as prescribed in FAR 30.602, DCMA is required to request
that RPSC submit a cost impact proposal that identifies the cost impact of the changes on the
NSF contract.

Due to the significant inadequacies found in RPSC’s descriptions of its accounting practices,
DCAA was unable to perform the compliance portion of the audit or to identify the resulting cost
impact. Except for this qualification, the DCAA audit was performed in accordance with
generally accepted government auditing standards.

Background Information

Previously we reported to your office4 that RPSC did not comply with CAS 418, which requires
that RPSC consistently classify costs on the (USAP) contract as stated in its CASB Disclosure
Statement. RPSC was included in the Disclosure Statement of its parent company, Raytheon
Technical Services Company (RTSC). Since the inception of the USAP contract through
December 31, 2004 (five years), RPSC did not comply with RTSC’s disclosed accounting
practices for distinguishing direct costs from indirect costs. This resulted in RPSC improperly
claiming indirect costs as direct costs totaling                  (              for Fiscal Years
(FYs) 2000 through 2002, and                         for FYs 2003 and 2004) in its incurred cost
submissions for these five years. On August 22, 2006, the Defense Contract Management
Agency (DCMA) issued a final determination of RPSC’s noncompliance with CAS 418 and its
disclosed accounting practices to RTSC for the three-year period ending December 31, 2002.

Effective January 1, 2005, Raytheon removed RPSC from RTSC’s CASB Disclosure Statement.
This left RPSC performing the USAP contract without any CASB Disclosure Statement to
describe its cost accounting practices, contrary to FAR and the USAP contract. DCAA issued an
audit report citing this additional noncompliance on November 18, 2005.5 Also, on April 5,
2006, DCMA cited RTSC with an initial finding of noncompliance with CASB 9903.202-1,
Disclosure Statement General Requirements for failing to disclose the cost accounting practices
of RPSC in a CASB Disclosure Statement.

In response, Raytheon submitted on April 17, 2006, an “initial” CASB Disclosure Statement for
RPSC, retroactively effective to January 1, 2005. While this Disclosure Statement is new for
RPSC as a separate organizational unit of RTSC, it functions as a revised (not an initial)
Disclosure Statement for the USAP contract. This is because under FAR, a contract, as opposed
to an organizational unit of an entity, is subject to Federal Cost Accounting Standards.
Therefore, since the USAP contract is a fully CAS-covered contract, the April 17, 2006
Disclosure Statement, if accepted, will result in increased costs to NSF by changing the terms
and conditions under which RPSC will bill costs under the contract. The proposed change we


4
  Reference NSF OIG Audit Report No. 06-1-001, dated March 21, 2006, “Audit of Raytheon Polar Services
Company’s Noncompliance with Cost Accounting Standard 418, Allocation of Direct and Indirect Costs for Fiscal
Years 2000 to 2002.”
5
  Reference NSF OIG Audit Report No. 06-1-011, “RPSC’s Failure to File Required Cost Accounting Disclosure
Statement,” dated July 6, 2006.



                                                      2
are most concerned about is that certain                                              previously disclosed as
indirect costs6 are now disclosed as direct costs.

While this change will allow RTSC to correct its noncompliance with CAS 418 and its prior
disclosed accounting practices, it will also allow RPSC to charge certain locally incurred indirect
costs that were previously subject to ceiling caps and not allowable. These
approximate              of the                  , or        , of the improperly claimed indirect
costs discussed in prior audit reports. Under the new Disclosure Statement, these
                       will now be allowable as direct costs for the remaining five years of the
USAP contract.

Because RPSC has not provided any cost impact proposal for its change in disclosed accounting
practice, and to ensure NSF and the National Science Board are aware of, and have a clear
understanding of, the amount of increased costs that will result from this change to the USAP
contract, we have requested DCAA to provide an estimate of the amount of resulting increased
costs from January 1, 2005 until the anticipated completion of the USAP contract. We will
transmit DCAA’s estimate of increased costs to NSF upon our receipt and review.

Results of Audit

In the attached report, DCAA found that the RPSC Disclosure Statement does not adequately
describe the contractor’s cost accounting practices. DCAA identified numerous inadequacies
and made recommendations to RPSC to correct each deficiency and submit a revised Disclosure
Statement. Specifically, DCAA found that RPSC’s Disclosure Statement did not adequately
describe how RPSC:




6
 Prior to contract award, RTSC certified on the cover sheet of its proposal that it had submitted a CASB Disclosure
Statement, and that no aspect of its proposal was inconsistent with its disclosed practices, as set forth in its
Disclosure Statement that was on file with the Government at that time. This Disclosure Statement cited these




                                                        3
DCAA also noted that a matrix identifying the various methods that costs are allocated to service
center and expense pool allocation bases was omitted from the Disclosure Statement. The
contractor concurred with the changes DCAA recommended that RPSC make to its Disclosure
Statement and agreed to submit a revised Disclosure Statement by November 1, 2006, to address
the noted deficiencies. As of December 13, 2006, however, RPSC still had not provided DCAA
with its revised Disclosure Statement.

Upon receipt of the revised Disclosure Statement, DCAA will complete its audit of the adequacy
of the Disclosure Statement. When the Disclosure Statement is deemed adequate, DCAA will
conduct its audit of compliance. When the Disclosure Statement is both adequate and compliant,
DCAA will evaluate the cost impact of the changes in accounting practice upon receipt of
RPSC’s cost impact proposal.

We recommend that NSF continue to coordinate with and allow DCMA to take the lead in 1)
obtaining the revised RPSC Disclosure Statement and determining if the revised Disclosure
Statement adequately describes RPSC’s cost accounting practices and complies with CAS and
FAR, and 2) requesting submission of a cost impact proposal and evaluating the cost impact of
the changes in accounting practice from the time of the changes (January 1, 2005) until the
anticipated completion of the USAP contract. After receipt of this information, it will then be
necessary for NSF to assess the desirability of the change in disclosed accounting practice in
light of the resulting increased costs, and, if determined desirable, negotiate a modification of the
USAP contract with RPSC.

We consider the issues in the DCAA audit report to be significant. Accordingly, to help ensure
that the findings are resolved within six months of issuance of the audit report, please coordinate
with our office during the resolution period to develop a mutually agreeable audit resolution
memorandum.

We also want to bring to your attention that DCAA has briefly discussed the results of several
other audits performed at RTSC or Raytheon Corporate Headquarters beginning on page 9 of the
attached DCAA report. Many of the reports have information that may be useful to NSF in
administering its USAP contract with RPSC. If NSF desires a copy of any of the referenced
DCAA reports, please contact Kenneth Stagner at (303) 312-7655 or David Willems at (703)
292-4979.

We are providing a copy of this memorandum to the Director of the Office of Polar Programs.
However, since the responsibility for audit resolution rests with DACS, we ask that no action be
taken concerning the report’s findings without first consulting DACS at (703) 292-8242. In
addition, DCAA did not include DCMA in its distribution list for the attached audit report.
Therefore, we provided a copy of the DCAA audit report to DCMA.




                                                 4
OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

   •   reviewed the audit report prepared by DCAA to ensure compliance with Generally
       Accepted Government Auditing Standards and Office of Management and Budget
       Circulars; and

   •   coordinated issuance of the audit report to NSF.

DCAA is responsible for the attached auditor’s report on RPSC and the conclusions expressed in
the report. The NSF OIG does not express any opinion on the conclusions presented in DCAA’s
audit report.

We thank your staff for the assistance that was extended to us during the audit. If you have any
questions about this report, please contact David Willems or Jannifer Jenkins at (703) 292-4996.




Attachment: DCAA Report No. 6161-2006P19100001 “Revised” dated October 20, 2006, “Report
on Adequacy and Compliance of RPSC Initial Disclosure Statement Dated January 1, 2005.”

cc: Thomas Cooley, Director, BFA
    Mary Santonastasso, Director, DIAS
    Karl Erb, Director, OPP



                                               5
             DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 6161-2006P19100001
                        “Revised”

                                                        October 20, 2006

PREPARED FOR: National Science Foundation
              ATTN: Ms. Deborah Cureton
              Associate Inspector General for Audit
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Herndon Branch Office
                  171 Elden Street, Suite 305
                  Herndon, VA 20170
                      Telephone No.        (
                      FAX No.
                      E-mail Address

SUBJECT:          Report on Adequacy and Compliance of RPSC Initial Disclosure
                  Statement Dated January 1, 2005

CONTRACTOR:       Raytheon Polar Services Company (Cage Code No. 3NYQ8)
                  Raytheon Technical Services Company
                  12160 Sunrise Valley Drive
                  Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 28
                                                                                 Page
CONTENTS:          Subject of Audit                                                1
                   Scope of Audit                                                  1
                   Results of Audit                                                2
                   Contractor Organization and Systems                             9
                   DCAA Personnel and Report Authorization                        28
                   Audit Report Distribution and Restrictions                     29
                   Appendices                                                     30
Audit Report No. 6161-2006P19100001 “Revised”

                                      SUBJECT OF AUDIT

       This purpose of this revised report is to correct wording in the initial audit report and to
update the Organization and Systems section of the initial audit report related to the status of
outstanding CAS noncompliances.

        In response to your August 2, 2006 request, we examined Polar Services’ initial
disclosure statement, dated January 1, 2005 to determine if the disclosed practices are adequate
and are in compliance with CAS. By submitting its CAS disclosure statement, RPSC asserts that
the disclosure statement adequately describes its cost accounting practices, and the disclosed
practices comply with Cost Accounting Standards Board rules, regulations, and standards
contained in 48 C.F.R. Chapter 99. The purpose of our examination was to evaluate whether the
subject disclosure statement adequately describes the cost accounting practices which the
contractor proposes to use in the performance of contracts covered by 48 C.F.R. Chapter 99 and
to determine whether the disclosed practices described in the RPSC disclosure statement dated
January 1, 2005 comply with applicable Cost Accounting Standards and FAR Part 31.

       The contractor is responsible for the adequacy of the disclosure statement and
compliance of the disclosed accounting practices with applicable cost accounting practices and
FAR Part 31. Our responsibility is to express an opinion on the adequacy of the disclosure
statement and whether the disclosed accounting practices comply with those requirements based
on our examination.


                                       SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the
contractor’s disclosure statement adequately describes its cost accounting practices. An
examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the adequacy of the disclosure
           statement; and;
       •   evaluating the overall disclosure statement presentation.
Audit Report No. 6161-2006P19100001 “Revised”

       We evaluated the subject disclosure statement using applicable requirements contained in
the:

       •   Federal Acquisition Regulation (FAR); and
       •   CAS Board rules, regulations and standards.

        We evaluated the Indirect and Other Direct Cost System of internal controls at Raytheon
Polar Services in Audit Report No. 6161-2004T14980202 Dated December 15, 2005 and
determined that RPSC lacked certain control procedures to ensure that indirect and other direct
costs, which are proposed, claimed and billed to the U.S. Government, are compliant with
applicable laws and regulations and are properly assigned to cost objectives. We determined that
the RTSC Indirect and Other Direct Cost System is inadequate in-part.

        The scope of our examination reflects our assessment of control risk and includes audit
tests designed to provide a reasonable basis for our opinion. Our examination does not provide a
legal determination on RPSC compliance with the specified requirements.

QUALIFICATIONS:

        As a result of the significant inadequacies, we were unable to appropriately perform the
compliance portion of this review or provide the resulting cost impact as requested. We
recommend that the contractor submit a revised disclosure statement to address the inadequacies
so that a review for compliance can be performed in the near future.


                                      RESULTS OF AUDIT

      This revised report corrects wording in our initial audit report and updates the
Organization and Systems section of the initial audit report related to the status of outstanding
CAS noncompliances.

       Our initial audit report has been reissued in its entirety.

       In our opinion, the subject disclosure statement does not adequately describe the
contractor’s cost accounting practices. Accordingly, we recommend the contractor submit a
revised disclosure statement.

        This examination was limited to evaluating the adequacy of accounting practice
descriptions in the subject disclosure statement. Accordingly, we express no opinion on whether
the disclosed practices are proper, approved, or agreed to for pricing proposals, accumulating
costs, or reporting contract performance data.
                                                 2
Audit Report No. 6161-2006P19100001 “Revised”


       We provided a memorandum to the contractor’s representative on September 18, 2006
describing the disclosure statement inadequacies. The contractor’s representative,
                            stated that a formal exit conference was not necessary and that the
memorandum describing the inadequacies would be sufficient. The contractor agreed to provide
an adequate disclosure statement no later than November 1, 2006. The complete text of the
contractor’s response appears in the appendix to this report.

       We identified the following inadequacies in the contractor’s disclosure statement:



Condition:

RPSC provides as a contract requirement, wine and liquor as well as various other typically
unallowable items to the Antarctic as part of the re-supply of retail and drinking establishments.
Since these MWR type items are part of the normal support operations, the contractor feels that
the expressly unallowable items are allowable since they are required by the contract. The
contractor’s opinion on this matter was expressed in a written response to the FY 2003 Incurred
Cost Audit Assignment No. 6161-2003P10100201.




                                                 3
Pages 4-7 have been redacted in their entirety.
Audit Report No. 6161-2006P19100001 “Revised”

This recommendation does not assume compliance with CAS 405 or FAR Part 31.205. An
assessment of compliance will be performed after the disclosure statement has been deemed
adequate.




                                              8
Audit Report No. 6161-2006P19100001 “Revised”

                    CONTRACTOR ORGANIZATION AND SYSTEMS

I.     Organization

       RTSC Headquarters is located in Reston, VA.




       RTSC has a multi-disciplined workforce of approximately 10,000 employees. RTSC
provides technical, scientific, and professional services to defense, federal, and commercial
customers on all seven continents, including support for operations in space, at sea, and on land.
RTSC had annual sales of approximately                    in FY 2005, of which approximately
      are primarily government prime contracts and subcontracts. Of the government contracts
and subcontracts, approximately                  are flexibly priced (i.e. cost type and time and
materials (T&M) type).

                                                9
Pages 10-27 have been redacted in their entirety.
Audit Report No. 6161-2006P19100001 “Revised”

                                      DCAA PERSONNEL

                                                             Telephone No.
Primary contacts regarding this audit:




Other contact regarding this audit report:

                      , Branch Manager

                                                             FAX No.



                                                             E-mail Address


General information on audit matters is available at http://www.dcaa.mil/.


                                      RELEVANT DATES

Request for Audit: NSF OIG – dated August 02, 2006; received August 04, 2006

AUDIT REPORT AUTHORIZED BY:


                                                           /Signed/


                                                           Branch Manager
                                                           DCAA Herndon Branch Office




                                               28
Audit Report No. 6161-2006P19100001 “Revised”

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                E-mail Address
National Science Foundation                     dwillems@nsf.gov
ATTN: Ms. Deborah Cureton
Associate Inspector General for Audit
4201 Wilson Boulevard
Arlington, VA 22230

Raytheon Technical Services Company
Polar Services
12160 Sunrise Valley Drive
Reston, VA 20191
(Copy furnished thru NSF ACO)

RESTRICTIONS




                                        29
Audit Report No. 6161-2006P19100001 “Revised”


APPENDIX
                     Contractor’s Response dated October 4, 2006.




                                         30
Raytheon                                                               Technical Services Company
                                                                       12t60 Sunrise Valley Drive
                                                                       Finance Department
                                                                       Resloo, Vrginia
                                                                       20191-3461 USA
                                                                       703.295.2124
                                                                       703.295.2032 I&:


                                               Memorandum
0 ••            4 October 2006                 Memonumbel

To              Larry Tatem

Organizati:t\   OCM                            Organization


Subjet1         Polar Services Disclosure      Classilication
                Statement - Adequacy review

DiStribution    See Below
                                               File number


Reference: OCM draft audit report 06-02L-008, 6161-2006P191 00001 dated September
18,2006

The referenced audit report identified several inadequacies in the Polar Services
Disclosure Statement and provided recommendations on enhancements to the document
to provide further clarity and detail of RTSe Polar disclosed practices. RTSe has
reviewed DCAA's recommendations and concurs that the recommended changes are
accurate and will improve the quality of the document. RTSe will submit a revised
Disclosure Statement no later than 1 November 2006 to address the items noted in the
OeM audit report.

Please contact me at your convenience if you have any further questions regard ing this
correspondence.




                                                                                                    I
                                                                                                    :




                                                                                                    I
                                                                                                    I
